                                                      IG-01-027




AUDIT                      ACQUISITION OF THE SPACE STATION
REPORT                           PROPULSION MODULE

                                      May 21, 2001




                             OFFICE OF INSPECTOR
                                  GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183, (800)
535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

ATV             Autonomous Transfer Vehicle
FAR             Federal Acquisition Regulation
FGB             Functional Energy Block
GAO             General Accounting Office
ICM             Interim Control Module
ISS             International Space Station
NPD             NASA Policy Directive
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
OMB             Office of Management and Budget
OPTS            Orbiter Propellant Transfer System
SRR             Systems Requirements Review
USPM            United States Propulsion Module
USPS            United States Propulsion System
W                                                                               May 21, 2001

TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Audit of Acquisition of the Space Station Propulsion Module
                 Report Number IG-01-027


The NASA Office of Inspector General (OIG) has completed an Audit of Acquisition of the Space
Station Propulsion Module. We found that, with a life-cycle cost of $1,558 million and a diminished
need for long-term U.S. propulsion capability, the Propulsion Module was not cost-effective. In March
2001, NASA cancelled the Project after recognizing that the estimated $675 million cost to complete
the Project was not affordable. NASA implemented the United States Propulsion Module (USPM)
design before properly accomplishing acquisition planning and preparing project documentation. For
example, NASA did not validate requirements from the system requirements review1 (SRR) before
beginning a preliminary design review of the USPM. As a result, the Agency spent $97 million2 and 19
months of effort before it determined that the design was unacceptable. For the follow-on design, the
United States Propulsion System (USPS), NASA appropriately analyzed alternatives, developed an
acquisition strategy, and defined requirements. However, the Agency pursued implementation of the
USPS without an approved project plan or risk management plan. Also, NASA selected The Boeing
Company (Boeing) as the sole-source contractor without properly documenting the justification for the
noncompetitive selection. As a result, NASA had not shown that the selection was in the best interest
of the Government.

Background

The purpose of the Propulsion Module Project was to provide a U.S. capability for long-term
propulsion on the International Space Station (ISS). In October 1998, the Agency began the Project
with the USPM design, which included a requirement for on-orbit refueling of the Propulsion Module by
the Space Shuttle. The propellant transfer requirement involved another element of the USPM, called
the Orbiter Propellant Transfer System (OPTS). The USPM encompassed two major programs at the
Lyndon B. Johnson Space Center (Johnson), the




1
 A systems requirements review is the process to define and baseline a complete set of requirements for a project.
2
 NASA estimated expenditures of $125 million for the USPM, of which $28 million can be used on the International
Space Station.
                                                                                                                     2

ISS Program and the Space Shuttle Program; and at the George C. Marshall Space Flight Center
(Marshall), the Propulsion Module Project Office. In May 2000, the Agency cancelled the OPTS
because of unacceptable risks. In July 2000, NASA suspended development of the Propulsion
Module.

In September 2000, after extensive analysis of propulsion alternatives, NASA selected the USPS
design.3 The USPS consisted of a redesigned Propulsion Module that would attach to a node to be
added to the forward end of the ISS. Boeing had already built the node as the Node 1 Structural Test
Article and planned to modify it to provide an attachment point for the Propulsion Module and a
docking port for the Space Shuttle. The USPS would not have been refueled on-orbit but would have
returned to earth for maintenance and refueling.

Recommendations

Because NASA took action to cancel the Project, we are not making recommendations on the Project.
However, we recommended that for future ISS projects, NASA establish an approved project plan,
acquisition plan, and risk management plan; resolve all discrepancies from an SRR before beginning a
preliminary design review; and establish synchronized milestones for all related program and project
elements. These actions would provide a more stable baseline for project implementation, help ensure
that risks are identified early, and help facilitate better coordination between project elements. We also
recommended that NASA obtain an approved justification, as prescribed by the Federal Acquisition
Regulation (FAR), before initiating future sole-source procurements on the ISS contract. This action
would help ensure that NASA considers competitive procurement for new work and properly
documents justification for exceptions to show that its decisions are in the best interest of the
Government.

Management Response and OIG Evaluation

NASA concurred with the recommendation to establish an approved project plan, acquisition plan, and
risk management plan. Management stated that it would manage all ISS Projects consistent with
NASA policy. The Agency also provided general comments in which it disagreed with our finding that
the USPM design was selected without fully considering alternatives and without developing an
adequate acquisition strategy. The complete text of management's response is in Appendix E.

NASA's comments are responsive to the recommendation. Management's commitment to manage all
ISS Projects consistent with NASA policy is sufficient to close the recommendation for reporting
purposes. Our additional comments on management's response are in Appendix F.

NASA partially concurred with the recommendation to resolve all SRR discrepancies prior to beginning
a preliminary design review. Management stated that resolving all SRR discrepancies


3
 Compared to the USPM, the USPS was designed to use a safer fuel (a monopropellant), did not require a complex
and heavy system of lines and valves for transferring the more volatile bipropellant fuel, and did not involve the
safety risks of transferring fuel in orbit.
                                                                                                           3

prior to a preliminary design review is the goal for all projects and that processes are in place that fully
support NASA guidance. However, management disagreed that it should have closed all discrepancies
from the SRR before beginning a preliminary design review for the USPM (see Appendix E).

Management's comments are generally responsive to the recommendation. Although we maintain that
NASA should have closed all discrepancies from the SRR before beginning a preliminary design review
for the USPM, we acknowledge that the Project Office and the ISS Program Office appropriately
defined requirements for the USPS (see Appendix F). Therefore, we consider management's action
taken on the USPS and comments regarding future projects, in particular, the goal of resolving SRR
discrepancies prior to preliminary design review, sufficient to close the recommendation for reporting
purposes.

NASA concurred with the intent of the recommendation on sole-source procurements, recognizing that
all procurements must follow the appropriate regulations. However, the Agency maintained that the
Propulsion Module Project was within the scope of the contract and, therefore, was not subject to
requirements for competitive procurements (see Appendix E).

We maintain that the Project constituted new work that required properly documented justification for
the noncompetitive selection of Boeing. In fact, the Associate Administrator for Space Flight
acknowledged that the obligation for a Propulsion Module was not included in the ISS contract.
Further, it is in NASA's best interest to promote competition to the extent practical rather than pursue
regulatory exceptions that permit noncompetitive awards (see Appendix F). Nevertheless, we consider
management's statements regarding future projects sufficient to close the recommendation for reporting
purposes and will continue to monitor NASA's noncompetitive awards as part of other reviews.

Details on the status of the recommendations are in the recommendations section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Acquisition of the Space Station Propulsion Module
              FINAL REPORT ON
ACQUISITION OF THE SPACE STATION PROPULSION
                  MODULE
W                                                                        May 21, 2001


TO:             AA/Acting Director, Lyndon B. Johnson Space Center

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on Audit of Acquisition of the Space Station Propulsion Module
                Assignment Number A0004300
                Report Number IG-01-027


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Management's comments were generally responsive to the
recommendations and are sufficient to close the recommendations for reporting purposes.

If you have questions concerning the report, please contact Mr. Dennis Coldren, Program
Director, Space Flight Audits, at (281) 483-4773, or Mr. Jimmie Griggs, Auditor-in-Charge, at
(281) 483-9965. We appreciate the courtesies extended to the audit staff. The final report
distribution is in Appendix G.


[original signed by]
Russell A. Rau

Enclosure

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
DA01/Director, George C. Marshall Space Flight Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations , 2

     Finding A. Cost-Effectiveness of the Propulsion Module, 2

     Finding B. Acquisition Planning and Implementation, 6

     Finding C. Contractor Selection and Justification, 13

Appendix A - Objectives, Scope, and Methodology, 17

Appendix B - Chronology of Events for the Propulsion Module, 20

Appendix C - Analysis of Alternatives for the Propulsion Module, 23

Appendix D - Criteria for Project Management and Sole-Source
             Procurement, 26

Appendix E - Management's Response, 28

Appendix F - OIG Comments on Management's Response, 35

Appendix G - Report Distribution, 39
                             NASA Office of Inspector General

IG-01-027                                                                              May 21, 2001
A0004300

                              Audit of Acquisition of the Space
                                Station Propulsion Module

                                        Executive Summary
Background. The Propulsion Module Project was part of the ISS Program, for which Boeing
is the prime contractor. The purpose of the Project was to develop a U.S. propulsion capability
to mitigate the risk of a Russian failure to deliver critical elements or provide support to the ISS.
NASA began the Project in October 1998 and selected a design called the USPM in February
1999. The USPM consisted of two elements, the Propulsion Module and the OPTS. The
Project Office managed the Propulsion Module, the Space Shuttle Program Office managed the
OPTS and its integration with the ISS,4 and the ISS Program Office managed the integration of
the Propulsion Module with the ISS. In May 2000, NASA cancelled the OPTS because of
unacceptable safety, technical, and cost risks.5 In July 2000, the Agency suspended
development of the Propulsion Module. In September 2000, NASA selected a new design
called the USPS, which also consisted of two elements, the Propulsion Module and Node 4,6
and did not involve orbital transfer of propellant. NASA's estimate at completion for the
Project was $724 million. In March 2001, NASA cancelled the USPS because of budget
concerns. Appendix B contains a chronology of events for the USPM and USPS.

Objectives. Our overall audit objective was to determine whether NASA developed a cost-
effective acquisition strategy for a long-term propulsion capability for the ISS. Specifically, we
determined whether NASA identified and adopted the most feasible means of providing a long-
term propulsion capability and developed an acquisition strategy to limit the cost of the
Propulsion Module. Appendix A contains further details on our objectives, scope, and
methodology.




4
  The OPTS required major modifications to the Space Shuttle Orbiters to allow the transfer of propellant.
5
  The unacceptable risks related to the use of a volatile bipropellant fuel, a complex system of lines, valves,
and tanks for transferring the fuel, a permanent weight increase of about 1,500 pounds to the Orbiters, and
cost growth from $479 million to $744 million.
6
  Node 4 was the Node 1 Structural Test Article, which Boeing had already built but which needed to be
modified to provide an attachment point for the Propulsion Module and a docking port for the Space
Shuttle. Also, NASA redesigned the Propulsion Module for the USPS.
Results of Audit. The USPS represented a simpler and safer design than the USPM.
However, at a life-cycle cost of $1,558 million, the USPS was not a cost-effective strategy
because Russia's delivery and refueling of the Service Module7 eliminated a major risk and
diminished the need for long-term U.S. propulsion capability (Finding A).

The Agency attempted to implement the USPM before completing acquisition planning and
project documentation and spent $97 million and 19 months in project development before
determining that the design was unacceptable. For example, weaknesses in the requirement
review process contributed to a failed preliminary design review. Also, although the Agency
analyzed alternatives and developed an acquisition strategy for the USPS, NASA pursued
implementation of the USPS (like the USPM) without an approved project plan or risk
management plan and could have experienced similar negative cost and schedule impacts had
the Project not been cancelled (Finding B).

NASA selected Boeing as the sole-source contractor for the Project without determining
whether a sole-source procurement was appropriate and without properly documenting its
justification for the noncompetitive selection. As a result, NASA had not shown that the sole-
source procurement was in the best interest of the Government (Finding C).

Recommendations. Because NASA took action to cancel the USPS, we are not making
recommendations on the Project. However, for future projects, we recommend that NASA
complete acquisition planning and documentation, validate requirements, synchronize milestones,
and obtain an approved justification for sole-source selections.

Management Response. NASA either concurred or partially concurred with all the
recommendations. NASA also agreed that by canceling the Project, it could put $675 million
to better use.

Management stated that all of NASA's programs and projects would be planned and
documented consistent with NASA policy. In addition, resolving all requirement review
discrepancies is the goal for all projects. Program and project management will assure risks of
proceeding to the next milestone are identified and controlled including resolving requirement
review issues. The Agency established formal controls for defining, approving, and controlling
the interfaces between elements.

NASA also stated that all of its procurements follow the appropriate sole-source selection
regulations. However, NASA disagreed that the Propulsion Module Project was required to
follow the Federal Acquisition Regulation and Agency regulations on source selection because
NASA considered the Project to be a simple change that was within the general scope of the
contract.



7
 The Service Module, which Russia successfully delivered to the ISS in July 2000, provides attitude and
reboost control, communications, electrical power generation, life support, supplies and storage, crew
systems, and mechanism control. The Service Module is refueled through the Functional Energy Block (see
footnote 8).
                                                    ii
The complete text of the response is in Appendix E. Management also provided general
comments on our findings (see Appendix F).

Evaluation of Management's Response. We consider management's comments generally
responsive to the recommendations. However, we maintain that the Propulsion Module Project
was outside the scope of the ISS contract and was subject to Federal Acquisition Regulation
requirements for sole-source selection. Our response to management's general comments is in
Appendix F.




                                            iii
Introduction
The ISS is a cooperative international program. Russia's contribution to the ISS includes
propulsion services, which Russia has provided through the Functional Energy Block (FGB),8
the Service Module, and a series of unpiloted Progress vehicles.9

The Propulsion Module is part of the ISS Contingency Plan,10 which calls for near-term reliance
on Russian contributions while accelerating U.S. capabilities for long-term self-reliance. The
Project is required for the potential loss of Russian participation and is designed to provide
altitude reboost, debris avoidance maneuvers, and attitude control to augment Russian
propulsion capability for the life of the ISS.

In May 2000, the ISS Program tasked a special team, called the Alternative Propulsion Module
Assessment Team, to conduct a trade study to evaluate options and recommend a design for
the Project. Based on the team's study and a September 2000 ISS Program Integration
Study,11 the ISS Program Manager directed the Project Office to implement the USPS design. 12

In November 2000, Marshall's Procurement Office issued a modification to the ISS contract
that authorized Boeing to support the USPS Project with a limited statement of work. As part
of the limited statement of work, Boeing gave NASA a preliminary make-or-buy decision
briefing13 in December 2000 that recommended Boeing make Node 4 and buy (subcontract)
the Propulsion Module through competitive procurement actions. NASA planned to evaluate
and approve Boeing's final make-or-buy decision before awarding the contract. In
January 2001, the Project Office requested that Boeing submit a firm proposal on its make-or-
buy decision by April 30, 2001.




8
  The Functional Energy Block is a self-sufficient orbital transfer vehicle that contains propulsion, guidance,
navigation and control, communications, electrical power, thermal control systems, and stowage capacity.
The FGB also serves as the primary fuel tank for the Service Module. Russia delivered the vehicle in
November 1998 as the first element of the ISS. The Functional Energy Block is also called the Functional
Control Block, the Control Module, the FGB, and Zarya (Sunrise).
9
  Progress vehicles supply dry cargo and propellant. After the vehicles deliver propellant and cargo to the
ISS, they are undocked and de-orbited; they then burn up in the Earth's atmosphere.
10
   NASA now calls this plan the ISS Off-Nominal Situation Plan.
11
   Boeing performed the ISS Program Integration Study and coordinated it with the ISS Program Office,
Johnson Space Center, and the Propulsion Module Project Office.
12
   The direction to implement the design did not constitute authority to contract for the acquisition of the
USPS.
13
   The preliminary make-or-buy decision briefing gave NASA advance notice of Boeing's plans regarding
the contractor's recommended procurement approach for the USPS.
Findings and Recommendations

Finding A. Cost-Effectiveness of the Propulsion Module
NASA did not have a cost-effective strategy for a long-term propulsion capability. Before
NASA cancelled the Project, the Project Office's estimate at completion was $724 million, an
increase of $182 million (34 percent) over the Agency's budget of $542 million. While
acquisition costs had more than doubled, life-cycle costs also rose almost 50 percent. Other
key factors in assessing the cost-effectiveness of the Propulsion Module are its decreased
capability (from the USPM to the USPS), the reduction of major risks through the successful
integration of the Service Module into the ISS, the demonstrated refueling of the Service
Module by a Progress vehicle, and the de-orbiting of the Mir.14 The major remaining risk is the
potential shortage of Progress vehicles to refuel the Service Module, for which a long-term
U.S. propulsion capability is not needed. If the Project had continued, NASA could have paid
as much as $1,558 million to mitigate a risk that may never materialize and that could be
covered at a lower cost.

Increased Cost of the Propulsion Module

In October 1998, Boeing proposed a not-to-exceed amount for the Propulsion Module of
$331 million. In February 1999, Boeing increased its estimate by $148 million (45 percent) to
$479 million. The $148 million increase resulted from additional work including developing the
OPTS. Boeing maintained the $479 million cost until April 2000, when it again increased its
estimate by $265 million to $744 million, an increase of 125 percent in 18 months. The
$265 million increase was caused by additional requirements15 and schedule slips.

In September 2000, the Project Office estimated that the cost to complete the USPS would be
$675 million, including $63 million for a Space Shuttle flight to deliver the Propulsion Module to
the ISS. Including expenditures on the USPM Project, NASA's estimate for the entire
Propulsion Module Project was $724 million.

Life-cycle costs had also risen $511 million (49 percent) from $1,047 million for the USPM to
$1,558 million for the USPS, largely because of the expected need to refurbish the Propulsion
Module on the ground and transport it to and from the ISS about once a year with a Space
Shuttle Orbiter. The total life-cycle costs for the USPS included $660 million for initial
operational capability and $898 million for seven round-trip Space Shuttle flights16 and ground
servicing. The total life-cycle costs of $1,047 million for the USPM included $835 million for
initial operational capability and $212 million for operations costs for 12 years.

Although the costs increased, the budget stayed the same. As of February 2001, NASA's
budget of $542 million had not changed since the Project began with the USPM. The Agency

14
   Mir was the space station that Russia launched in February 1986.
15
   The additional requirements were for thermal, acoustic, and reboost tests; tunnel size increase; and helium
resupply.
16
   The seven flights were based on an initial delivery flight and annual replenishment flights for 6 years.
                                                        2
planned to increase the budget after reviewing the Boeing proposal that was due in April 2000.
However, a blueprint of the President's budget for fiscal year 2002 indicates that funding will be
redirected from high-risk elements like the Propulsion Module to help offset ISS cost growth.

Decreased Capability of the Propulsion Module

Although the life-cycle cost of the USPS would have been significantly more than for the
USPM, the capability of the USPS would have been less in the following ways:

     •   The requirement for the USPS was 6 years on-orbit compared to 12 years for the
         USPM.

     •   The monopropellant fuel that was to be used by the USPS, although safer, is about 33-
         percent less efficient than the bipropellant fuel designed for the USPM.

     •   A 6-month gap in coverage to the ISS would have existed each time the Propulsion
         Module was refurbished, compared to full-time coverage with the USPM because it
         would not have needed refurbishing.

Reduction of Risks

When the Project began, the ISS Contingency Plan included several high-risk Russian
scenarios, especially the risks that the Service Module would not be delivered (or not function)
and Russia would not provide the Progress vehicles transporting the fuel and supplies needed
for the Service Module. The successful integration of the Service Module in July 2000 and its
refueling by a Progress vehicle 2 weeks later greatly reduced those risks. The major remaining
risk to the ISS is the shortage of Progress vehicles. The most likely cause of such a shortage
would be insufficient funding by the Russian government.17

Potential Alternatives for Risk Mitigation

The Propulsion Module would not have sustained the ISS against a complete loss of Service
Module functionality because of its limited capabilities (discussed above) and because NASA
did not design the ISS for full redundancy of the Service Module. For example, the planned
location of the Propulsion Module, the front of the ISS, was not ideal for reboost because the
Service Module, located at the back of the ISS, occupies the best site for that purpose.
Consequently, the ISS would have to be rotated 180 degrees before the Propulsion Module
could be used effectively. Executing this maneuver would have required more time and fuel
(about 10 percent more fuel).

The Propulsion Module was designed to supplement rather than replace the propulsion
provided by the Service Module in the event of propellant shortages caused by an interruption
in the flow of Progress vehicles. Over its operational life, the ISS will need an average of 7


17
 An additional risk regarding Progress vehicles was that Russia would divert the vehicles to maintain the
Mir instead of the ISS. However, Russia de-orbited Mir in March 2001, thus eliminating that risk.
                                                    3
metric tons18 of propellant per year, with a range of 1 to 12 metric tons needed per year, the
equivalent of one to six Progress vehicles.19 The Service Module currently has a 1-year supply
of propellant.20 A combination of shorter-term alternatives, as described below, can provide a
more cost-effective solution to fill potential gaps in Russian resupply of propellant by Progress
vehicles.

Interim Control Module. The Interim Control Module (ICM)21 offers a low-cost and low-
risk concept that uses off-the-shelf hardware components and would ensure ISS guidance and
navigation control, attitude control, and reboost for at least a year. The ICM holds about
5 metric tons of propellant, the equivalent capacity of two and one-half Progress vehicles. A
Space Shuttle Orbiter could deliver the ICM to the ISS.

NASA originally planned to use the ICM to bridge a potential gap between the FGB and
Service Module if the Service Module was delivered late.22 After the Service Module became
operational, NASA viewed the ICM as a short-term solution to a delay or shortage of
Progress vehicles. Therefore, the Agency directed the Naval Research Laboratory to proceed
with modifications that would make the ICM better suited to help maintain ISS altitude without
a steady supply of Progress vehicles.

In October 2000, NASA cancelled further ICM development because of the decreased risk of
loss of Russian propulsion capability to the ISS and because $100 million could be saved by
storing it before completion. NASA placed the partially completed ICM in storage and stated
that it could be completed and readied for launch in about 24 months, if it is needed.23

Progress Vehicles. NASA can purchase Progress vehicles from Russia to mitigate the risk of
insufficient Russian funding.24 A Progress can deliver 2 metric tons of propellant to the Service
Module. The ISS Program Manager estimated that it costs the Russians less than $10 million to
build a Progress and that the cost, including launch, might be $20 to $30 million. While
potentially the most cost-effective alternative, this option is dependent on Russia's ability and
willingness to provide the vehicles and on approval by the Congress.

FGB-2. In July 2000, Boeing and Khrunichev25 partnered to launch and operate a second
FGB (called the FGB-2), which Khrunichev built as a backup to the FGB that was delivered to
the ISS in November 1998. The FGB-2 holds 4 metric tons of propellant, the equivalent of

18
    A metric ton is 1,000 kilograms (or 2,200 pounds).
19
    The wide range of needed propellant is caused by changes in solar activity, termed the solar cycle.
20
    The 1-year supply of propellant is stored in the Service Module, FGB, and Progress vehicle.
21
    The Naval Research Laboratory built the ICM for another agency and was modifying it for ISS. Rockwell
Aerospace presented the ICM concept to NASA in March 1996.
22
    The FGB had a design life of 16-1/2 months as an independent spacecraft but had been functioning (see
footnote 7) for 20 months before the Service Module was delivered.
23
    The Naval Research Laboratory disagrees that the ICM could be completed in 24 months because
laboratory representatives believe it would take longer to reassemble the team needed to finish the ICM.
24
   In October 1998, NASA modified the ISS contract to pay the Russian Space Agency $60 million to fund
continued work on the Service Module. As consideration, NASA received 4,000 hours in future crew time
and 2 cubic meters of stowage space originally allocated to Russia.
25
    Khrunichev is the Russian aerospace firm that built the FGB and the Service Module.
                                                         4
two Progress vehicles, and could be used to refuel the Service Module and provide additional
storage space for the ISS. The ISS Program Manager estimated that it would cost $200 million
to launch the FGB-2 but stated that it would not be a good business arrangement because it
would be costly and could be used only once. Nevertheless, the FGB-2 is an option.

Space Shuttle Orbiters. As part of each Space Shuttle mission to the ISS, an Orbiter
reboosts the ISS to a higher orbit. However, the effectiveness of this measure diminishes as
ISS assembly continues and its mass grows. On a recent mission (5A), an Orbiter reboosted
the ISS 14 miles. However, when ISS assembly is complete, an Orbiter will be able to reboost
the ISS only 2 miles. NASA can improve this reboost capability by modifying its Orbiter fleet
to allow aft fuel tanks to be used in addition to forward tanks. We reported earlier that the cost
of the modification was $90 million (see Appendix A).26

Autonomous Transfer Vehicles. NASA can arrange with the European Space Agency to
use Autonomous Transfer Vehicles (ATV's) to refuel the Service Module. An ATV can carry 5
metric tons of propellant, more than twice the amount of a Progress, and would be launched
aboard an Ariane rocket. The European Space Agency is procuring nine Ariane rockets and
ATV's and would obtain the propellant for the ATV's from Energia, a major Russian aerospace
firm. The nine ATV's are part of the current ISS assembly and operations baseline; therefore,
NASA would need to procure additional ATV's to replace Progress vehicles. The ISS
Program Office provided us a rough cost estimate of $50 to $60 million for an ATV and
$110 million for an Ariane rocket.27

Cancellation of the USPS

As a result of our audit findings, we would have recommended canceling the USPS. On
February 12, 2001, we discussed this potential recommendation with the ISS Program
Manager. The ISS Program Manager was receptive to the recommendation and responded
that the ISS Program Office had begun reconsidering more cost-effective alternatives, such as
the ATV. Because the ISS Program Manager subsequently took action to cancel the USPS,
we are not making a related recommendation. Canceling the USPS allows NASA to put
$675 million to better use, which represents the cost to complete the USPS including $63
million for Space Shuttle launch support. These savings do not include reductions in operations
costs.




26
   We reported on the modification in report number IG-99-009, “Space Station Contingency Planning for
International Partners,” March 9, 1999.
27
   The rough cost estimate applies to the European Space Agency. The cost to NASA is currently
unknown.
                                                      5
Finding B. Acquisition Planning and Implementation
NASA attempted to implement the USPM before completing required acquisition planning and
project documentation. Specifically, NASA selected the USPM design without analyzing
alternatives and did not establish a project plan, develop an adequate acquisition strategy, or
prepare a risk management plan. Further, NASA did not validate requirements before
beginning a preliminary design review of the USPM and did not synchronize the milestones for
the two elements of the USPM. For the USPS, NASA had analyzed alternatives (see
Appendix C), developed an acquisition strategy, and defined requirements but, similar to its
approach for the USPM, the Agency did not have an approved project plan or risk
management plan. Implementation was premature because the Agency attempted to meet an
ambitious schedule for delivering a Propulsion Module to the ISS by fiscal year 2002. As a
result, the Propulsion Module failed its preliminary design review, NASA spent $97 million and
19 months developing the USPM before realizing that the OPTS design was unacceptable, and
the schedule to deliver a Propulsion Module to the ISS slipped by 3 years to fiscal year 2005.
Similar results could have occurred with the USPS if the Project had not been cancelled.

Acquisition Guidance

NASA Procedures and Guidelines (NPG) 7120.5A, "NASA Program and Project
Management Processes and Requirements," April 3, 1998, requires that all NASA projects
establish a plan to provide assurance that a project is ready to proceed with the implementation
phase. NPG 7120.5A also requires a risk management plan. Risk management begins with an
initial risk identification and development of a risk management plan and continues throughout
the project. NPG 7120.5A further requires that risk management planning be included in the
project plan. In addition, the NPG requires that project implementation be executed in
accordance with the controlling documents (in particular, the project plan and the risk
management plan) developed during the formulation and approval phase.

NASA FAR Supplement 1807.1, "Acquisition Plans," requires that acquisition plans be
approved before soliciting proposals. The NASA FAR Supplement also requires that the
written acquisition plan address each topic listed in FAR 7.105. Some examples of those topics
are provided below:

FAR 7.105, "Contents of Written Acquisition Plans," requires the plan to identify those
milestones at which decisions should be made. The plan should address all the technical,
business management, and other significant considerations that will control the acquisition. The
plan should also include a summary of the technical and contractual history of the acquisition,
feasible acquisition alternatives, effect of prior acquisitions on those alternatives, and any related
in-house effort.

Acquisition Planning

The ISS Program Office and the Propulsion Module Project Office were aware that the Project
was being implemented prematurely. However, the importance that NASA placed on an

                                                  6
accelerated schedule precluded appropriate project formulation and planning before project
implementation.

The ISS Program Office started implementation of the USPM before establishing a Project
Office and assigning a Project Manager. Boeing submitted a proposal in August 1998. In
October 1998, the ISS Program Office manifested the Propulsion Module as Mission 10A.1.
Also in October, Boeing proposed an updated not-to-exceed cost estimate. Later that month,
the ISS Program Office assigned a Project Manager.

In December 1999, the ISS Program Office, Space Shuttle Program Office, and the Project
Office signed an "Agreement and Direction for Propulsion Module Roles and Responsibilities,"
which identified the responsibilities of each office. NASA had conducted a separate systems
requirements review (SRR) for the Propulsion Module and the OPTS and was beginning a
preliminary design review on the Propulsion Module before the Agency established roles and
responsibilities for the program offices and the Project Office.

Project Plan. The Project Office had not prepared a project plan prior to proceeding with
implementation of the USPM. NPG 7120.5A requires a documented project plan to provide
assurance that a project is ready to begin implementation of approved project requirements and
plans. The Project Office had a draft project plan. However, the Marshall Center Director,
ISS Program Manager, Space Shuttle Program Manager, and the Project Manager had not
approved or implemented the plan.

The Project Office was developing a project plan for the USPS. However, the plan was still in
draft form and had not been approved or implemented by the appropriate managers. The
project plan should discuss and document all elements required by NPG 7120.5A. Specifically,
the plan should include:

    •   A comprehensive definition of the project concept.

    •   Agreements, approaches, and plans for meeting the technical, budget, schedule, risk
        management, commercialization, acquisition, and related project requirements and
        performance objectives.

    •   Concepts, mission development strategies, acquisition strategies, implementation plans,
        launch service agreements, and management plans.

Acquisition Strategy. NASA did not develop an adequate acquisition strategy or acquisition
plan prior to proceeding with the USPM Project. NPG 7120.5A requires that an acquisition
strategy be developed and managed for executing the project plan. The Project Office did not
have an approved project plan documenting the acquisition strategy or a documented
acquisition plan. NASA FAR Supplement 1807 requires the Agency to approve acquisition
plans prior to solicitations and to address each topic listed in FAR 7.105. To meet acquisition
objectives, FAR 7.105 requires that the plan identify those milestones at which decisions should
be made, address all significant considerations that will control the acquisition, and discuss
feasible acquisition alternatives and any other related in-house effort. Also, the acquisition plan
                                                 7
should discuss the impact of prior acquisitions on alternatives and indicate prospective sources
of supplies or services that can meet the need.

NASA did have better planning for the USPS. The Project Office gave a presentation to the
ISS Program on a procurement approach for the USPS. The approach was to issue a limited
statement of work to Boeing for engineering activities associated with a requirements review, to
identify new long-lead items,28 prepare a make-or-buy plan, 29 and prepare a proposal for the
USPS. The Project Office planned to review Boeing's make-or-buy plan for adequacy and
approve the plan prior to contract award. Also, the Project Office would have determined the
acceptability of Boeing's selection of subcontractors and the process for key subsystems. The
ISS Program Manager approved the procurement approach in September 2000. Although the
Agency showed improvements in the procurement approach and planned activities, it should
have had an approved acquisition plan that documented the strategy and that was incorporated
into the project plan.

Risk Management Plan. NASA did not have an approved risk management plan prior to
initiating the USPM Project. The risk management plan was approved in April 2000, long after
the Project had been initiated. The risk management plan identified all required elements, but it
did not describe the Project methodology the Agency would use to determine when the Project
would no longer be viable.

NPG 7120.5A requires that the risk management plan be developed during project formulation
and be included in the project plan. The Deputy Project Manager stated that the plan was in
process and should be completed before the USPS was fully implemented and a contract
awarded. However, the plan should be approved and implemented before NASA gives
authority to proceed and before it awards a contract to assure that risks are managed and
controlled by both the Agency and the contractor.

A NASA Independent Assessment Team also identified some of the same conditions regarding
acquisition planning for the USPM. The team found that critical project management processes
were not in place. Specifically, the assessment noted that the project plan was still a draft and
that the risk management process was not well

developed. The report recommended that NASA delay the delta preliminary design review
until the design was ready and the Agency had a signed project plan and mature risk
management process in place.30




28
   Long-lead items are materials that will need to be ordered promptly in order to stay on schedule.
29
   A make-or-buy plan supports the determination on whether an item will be made in-house or purchased
from another source.
30
   The Independent Assessment team presented its results to the Office of Space Flight on March 13, 2000.
The Office decided not to request approval from the Program Management Council to implement the Project
until the major problems were solved. Consequently, the Independent Assessment team did not present the
report to the Council. Therefore, NASA considered the results preliminary.
                                                        8
Requirements Validation

The Project Office's "United States Propulsion Module Systems Requirements Review Plan,"
March 3, 1999, requires that NASA resolve discrepancies (known as review item
discrepancies) found during the SRR before conducting a preliminary design review. The
purpose of the SRR was to establish that the Propulsion Module development, test, and
integration processes and documentation were consistent with and responsive to requirements
of the ISS Program and the Space Shuttle Program. Also, the SRR's objective was to baseline
a complete set of requirements for the Project as a prerequisite for a preliminary design review.

The purpose of the preliminary design review was to confirm that the initial design satisfied the
baseline requirements of the Propulsion Module. In December 1999, NASA began the
preliminary design review for the Propulsion Module of the USPM although there were 26 open
discrepancies from the SRR, which had been held in March and April 1999. To resolve the
open discrepancies, the preliminary design review plan stated that all open SRR discrepancies
would be converted to preliminary design review discrepancies. By converting the
discrepancies, the Project Office bypassed a major control -- the requirement in the SRR plan
to resolve discrepancies and validate requirements before starting the preliminary design review.
Also, because the SRR discrepancies were not resolved, the baseline requirements were not
fully known. As a result, the unresolved discrepancies contributed to the failed preliminary
design review for the Propulsion Module in December 1999.

The Project Office and the ISS Program Office had defined requirements for the USPS. As
part of the limited statement of work, Boeing and the Project Office defined requirements in
order to include them as part of the request for proposal. Although the Project Office had not
prepared the SRR plan for the USPS, the plan should have contained the same objectives and
requirements as for the USPM. Also, the Project Office should have ensured that all SRR
required elements were completed and approved before starting a preliminary design review.

The Independent Assessment Report also found that the USPM was not ready for a preliminary
design review because firm requirements were not in place. The team recommended that
NASA delay the delta preliminary design review until all requirement issues were resolved and a
stable baseline could be developed.



The Space Shuttle Program Office prepared a "lessons learned" report on the cancellation of the
OPTS. The report states that NASA allowed Boeing to baseline a cost and design solution
before NASA defined requirements and developed a conceptual design based on requirements.

Milestone Synchronization

The ISS Program Office did not synchronize the SRR and preliminary design review milestones
for the Propulsion Module and the OPTS. The Project Office held an SRR during March and
April 1999 for the Propulsion Module. The Space Shuttle Program Office held an SRR for the
OPTS in June 1999. The Propulsion Module preliminary design review failed in
                                                9
December 1999, and a delta preliminary design review was held in April 2000. There was no
preliminary design review for the OPTS because the ISS Program Manger cancelled the OPTS
before it was ready for a preliminary design review.

The Project Office attempted to conduct the preliminary design review and then the delta
preliminary design review for the Propulsion Module before the OPTS was ready for its
preliminary design review. One of the main reasons the Propulsion Module could not resolve
the discrepancies identified in the SRR was because the requirements definition and validation
for the OPTS lagged behind the Propulsion Module. Specifically, the Space Shuttle Program
Office held the SRR for the OPTS 3 months after the Propulsion Module SRR, and the OPTS
never did catch up.

NASA did not know that the need for safer and more robust lines and valves for the OPTS
modifications in the Orbiters would add unacceptable weight to each Orbiter until after the
preliminary design review for the Propulsion Module. In effect, the modifications caused the
cost of the Propulsion Module to increase significantly and the weight of the Orbiter to increase
beyond the ISS Program's acceptable limit. The Project Office and Space Shuttle Program
Office should have waited and had only one SRR and one preliminary design review for both
elements together.

The Independent Assessment Report stated that, since the preliminary design review for the
OPTS was scheduled after the Propulsion Module delta preliminary design review, late OPTS
development could have affected the Project's ability to meet Propulsion Module requirements.
The report recommended that NASA perform an integrated preliminary design review of the
Propulsion Module and OPTS after requirements and the preliminary design were finalized.
The Agency never acted on the recommendation because 2 months later, it cancelled the
OPTS.

The "lessons learned" report by the Space Shuttle Program Office also noted that milestones for
the OPTS and Propulsion Module were not synchronized. The report states that the Boeing
Propulsion Module team was more focused on developing the Propulsion Module rather than
integrating it with the OPTS. The report characterized the team as having "a compartmentalized
perspective" and "resistance to developing an integrated verification/validation plan."

Although the USPS did not involve a major program other than the ISS Program, integration
and software for the USPS were under the ISS Program, while the development of the Node 4
and the Propulsion Module was under the Project Office. Therefore, the milestones should
have been integrated and synchronized to assure that the all efforts were well coordinated.

Recommendations, Management's Response, and Evaluation of
Response




                                                10
The Acting Director, Johnson Space Center, should, for future ISS projects:

    1. Establish an approved project plan, acquisition plan, and risk management plan,
       as required by NPG 7120.5A and NASA FAR Supplement 1807.

Management's Response. Concur. Management stated that it would manage all ISS
Projects consistent with NPG 7120.5A. Management also provided general comments in
which it disagreed with our finding that the USPM design was selected without fully considering
alternatives and without developing an adequate acquisition strategy. The complete text of
management's response is in Appendix E.

Evaluation of Response. Management's comments are responsive to the recommendation.
With regard to management's disagreement with the finding, in our opinion, there is a clear
relationship between deficiencies in project planning and the ultimate cancellation of the USPM.
The Agency's commitment to manage all ISS Projects consistent with NPG 7120.5A is
sufficient to close the recommendation for reporting purposes. Our additional comments in
response to management's position on the finding are in Appendix F.

    2. Resolve all discrepancies from a systems requirements review before
       beginning a preliminary design review.

Management's Response. Partially concur. Resolving all SRR discrepancies prior to the
preliminary design review is the Agency's goal for all projects. Processes are in place that fully
support the guidance in NPG 7120.5A, and project management reviews the process to
balance cost and schedule commitments against technical demands. In general comments on the
report, NASA disagreed that it should have closed all discrepancies from the SRR before
beginning a preliminary design review for the Propulsion Module Project (see Appendix E).

Evaluation of Response. Management's comments are generally responsive to the
recommendation. Although we maintain that NASA should have closed all discrepancies from
the SRR before beginning a preliminary design review for the USPM, we acknowledge that the
Project Office and the ISS Program Office ultimately defined requirements for the USPS before
the Project was cancelled (see Appendix F). Therefore, we consider management's action
taken on the USPS and comments regarding future projects sufficient to close the
recommendation for reporting purposes.

    3. Establish synchronized milestones for all related program and project elements.

Management's Response. Partially concur. The ISS Program has formal controls for
defining, approving, and controlling the interfaces between elements of a project. Any joint
development, integration, or test activities that need to be performed for major milestone
reviews will be identified and included in the integrated project schedules. However, because
the recommendation provides the lowest risk posture for a project, the ISS Program would be
unexecutable with a strict application of the recommendation (see Appendix E).



                                                11
Evaluation of Response. NASA's comments are generally responsive to the
recommendation. Although we maintain that synchronized milestones would have benefited the
Propulsion Module Project, we recognize that sometimes more risk must be assumed to achieve
program results when needed. We consider management's comments regarding future projects
sufficient to close the recommendation for reporting purposes.




                                            12
Finding C. Contractor Selection and Justification
NASA did not determine whether a sole-source procurement selection was the appropriate
approach for the acquisition of a propulsion capability for the ISS. Further, the Agency did not
properly document its justification for the sole-source selection of Boeing as the contractor for
the Propulsion Module Project. These conditions occurred because NASA considered the
propulsion capability to be within the general scope of the ISS prime contract and, therefore,
not subject to requirements in the FAR for competitive procurements. However, the propulsion
capability represented new work (that is, work that was not within the scope of the contract) for
which NASA agreed to pay Boeing additional fee. Consequently, NASA cannot assure the
Congress or the public that the sole-source contract was in the best interest of the Government.

FAR Criteria for Competition

FAR 6.101(b), “Full and Open Competition,” requires that contracting officers provide for full
and open competition through use of competitive procedures that are best suited to the
circumstances of the contract action and consistent with the need to fulfill the Government’s
requirements efficiently.

FAR 6.302-7, “Public Interest,” states that full and open competition need not be provided for
when the agency head determines that it is not in the public interest in the particular acquisition
concerned. This authority may be used only when none of the other authorities for an award
without full and open competition apply.

FAR 6.303, “Justification,” states that in awarding a sole-source contract, the contracting
officer must prepare a written justification and have the justification approved by an agency
official designated by the statute. FAR 6.303-2 sets forth the content that each justification
must include (see Appendix D).

Doctrine of "Cardinal Change"

The Federal Court of Claims has enunciated a doctrine known as the “cardinal change” rule in
which a change in work beyond the contemplation of the parties at the time the contract was
negotiated constitutes a change in scope.31 Further, a material increase in the amount or
character of work requirements redefines the scope of the original contract so that the additional
work is outside the scope of the contract. Such material alteration to a contractual
understanding is a cardinal change and, when such a change occurs, rigid provisions of a
contract are waived to allow recovery of additional costs and fee. Although an increase in work
may result in a material change to a contract, the work may be considered within the scope of
the original contract if the changes do not result in increased costs and concomitant increased
fee to the contractor.

Scope of the ISS Prime Contract
31
  For a discussion of the evolution of the cardinal change doctrine, see Public Contract Law Journal Volume
24, Number 3, Spring 1995, page 77, “The Cardinal Change Doctrine and its Application to Government
Construction Contracts,” George E. Powell, Jr.
                                                       13
In August 1993, following Presidential and congressional directives to redesign the ISS, NASA
determined that it was in the public interest to use other than full and open competition to make
Boeing the single prime contractor for the ISS. NASA assigned Boeing the responsibility to
manage and integrate all aspects of the Program. NASA also granted Boeing the authority to
novate32 existing prime contracts as subcontracts.

The broad scope of work in the ISS contract included the design, development, and
construction of a Propulsion Module, but the prime contract awarded to Boeing did not include
work on the Propulsion Module and, in fact, such work was tasked to Russia. Therefore,
NASA's subsequent decision to develop a Propulsion Module constituted new work.

ISS Program officials explained that because the propulsion capability is an inherent part of the
ISS vehicle and Boeing is the single ISS prime contractor for the U.S. portion of the vehicle, the
addition of a U.S. propulsion module was within the general scope of the contract awarded to
Boeing. When Boeing submitted a proposal to integrate the Propulsion Module into the ISS,
NASA accepted the proposal without pursuing a full and open competitive award and modified
Boeing’s original contract through change orders on a “not-to-exceed” cost basis that included
fee.

However, the inherent part of the ISS vehicle did not include two propulsion capabilities. The
one propulsion capability included in the ISS vehicle was assigned to Russia and was not
included in the Boeing prime contract. Therefore, the change to add a second propulsion
capability was, in fact, a cardinal change and should have been considered a new procurement
that should have been competed or justified for sole-source contracting in accordance with the
requirements of the FAR.

Explanation by Office of Space Flight

In November 2000, the General Accounting Office (GAO) asked NASA to explain why it
decided to procure the Propulsion Module under the existing prime contract.33 In response, the
Associate Administrator for Space Flight explained that contract modifications are within the
scope and under the terms of the Boeing contract and are allowable according to the FAR.
Specifically, Clause I.12, of the ISS Prime Contract, “Changes-Cost Reimbursement,” allows
the ISS Contracting Officer to make changes within the general scope of the contract in any
drawings, designs, or specifications. The Associate Administrator added that Boeing is
responsible for:

     •   managing and integrating the ISS, in addition to coordinating the design and
         development of all necessary hardware;




32
   A contract is novated by an agreement in which the transferor guarantees performance of the contract, the
transferee assumes all obligations under the contract, and the Government recognized the transfer of the
contract and related assets.
33
   In June 2000, the Congress tasked the GAO to review the Propulsion Module Project.
                                                      14
    •   designing, developing, manufacturing, integrating, testing, verifying, and delivering the
        on-orbit segment of the ISS to provide support for orbital operations; and

    •   ensuring total ISS system performance.

However, the Associate Administrator also acknowledged that because the Russian
contribution to the ISS included the Service Module, the obligation for a propulsion module was
not included in the ISS contract.

Proper Justification Was Needed

As discussed earlier, the ISS vehicle did not include two propulsion capabilities, and the ISS
prime contract did not include a Propulsion Module. The Propulsion Module modification
materially alters the express terms of the original contract between NASA and Boeing and
represents a requirement that is outside the scope of the original contractual agreement of the
parties. Therefore, NASA should have considered full and open competition for the acquisition.
The broad exemption in the public interest for the original award of the contract to Boeing does
not extend to work that was not originally part of the contract. Accordingly, a sole-source
procedure would have been appropriate only upon obtaining written justification and approval,
as required by the FAR.

Although we disagree that the Agency's 1993 determination allowed for less than full and open
competition to procure the Propulsion Module, we acknowledge that NASA has the authority
to justify the noncompetitive selection of Boeing. However, NASA should have justified the
selection in the manner prescribed in the FAR, which requires that the justification meet the
criteria for a sole-source contract and be written and approved.

Recommendation, Management's Response, and Evaluation of
Response
    4. The Acting Director, Johnson Space Center, should, before initiating future
       sole-source procurements for the ISS contract, obtain an approved justification
       as prescribed in the FAR.

Management's Response. Concur with the intent of the recommendation. NASA stated
that it follows the FAR and NASA FAR Supplement for all new procurements. However,
NASA did not need to justify the sole-source procurement of the Propulsion Module because it
was within the general scope of the ISS Contract (see Appendix E).

Evaluation of Response. NASA's comments are responsive to the recommendation to the
extent that the Agency indicated an intent to follow FAR and Agency guidance on all
procurements. However, we maintain that the procurement was not within the general scope of
the contract (see Appendix F).




                                                 15
Although NASA contends that the Propulsion Module was not outside the scope of work,
NASA recognizes that all procurements must follow the appropriate FAR and Agency
regulations. We, therefore, consider management's response sufficient to close the
recommendation for reporting purposes. However, we will continue to monitor noncompetitive
procurements on the ISS contract and the related issue on scope of work.




                                            16
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether NASA developed a cost-effective
acquisition strategy for long-term propulsion capability for the International Space Station (ISS).
Specifically, we determined whether NASA:

    •   identified and adopted the most feasible means for providing long-term propulsion
        capability for the ISS, and

    •   developed an acquisition strategy to limit the cost of the propulsion modules.

Scope and Methodology

To accomplish our objectives, we obtained an overall understanding of the Propulsion Module
Project. We also reviewed and analyzed the Propulsion Module draft project plan, risk
management plan, system requirements review plan, independent cost estimates, Independent
Assessment Team briefing, budget submissions for Program Operating Plan 1999 and 2000,
trade study briefing, Alternative Propulsion Module Assessment Team (APMAT) Report, and
the International Space Station Schedule II.

Our audit included three visits to Marshall Space Flight Center. In addition, we interviewed
personnel at Lyndon B. Johnson Space Center (the ISS Program Office and the Space Shuttle
Program Office). We also interviewed personnel at Boeing, International Space Station in
Houston, Texas, and at Boeing, Reusable Space Systems, Huntington Beach, California.

We identified and reviewed the following relevant Federal and NASA regulations on program
management and procurement execution:

    •   NASA Policy Directive (NPD) 7120.4B, "Program and Project Management,"
        December 1999

    •   NPG 7120.5A, "NASA Program and Project Management Processes and
        Requirements," April 1998

    •   NASA FAR Supplement 1807.1, "Acquisition Plans," August 1997

    •   Office of Management and Budget (OMB) Circular A-109, "Major System
        Acquisitions," April 1976

    •   FAR, Parts 6 and 7 (see Appendix D for complete listing)

Management Controls Reviewed

For this report, we reviewed the following management controls relative to NASA oversight of
the project management process function:
                                                17
Appendix A

    •   NPD 7120.4B, "Program and Project Management," December 1999

    •   NPG 7120.5A, "NASA Program and Project Management Processes and
        Requirements," April 1998

    •   NASA FAR Supplement 1807.1, "Acquisition Plans," August 1997

    •   OMB Circular A-109, "Major System Acquisitions," April 1976

We determined that implementation of management controls for acquisition planning (Finding B)
and noncompetitive procurements (Finding C) need to be strengthened.

Audit Field Work

We performed the audit field work from May 2000 through February 2001 at Johnson and
Marshall. We performed the audit in accordance with generally accepted government auditing
standards.

Prior Audit Coverage

GAO recently issued an audit report on the procurement process for the Propulsion module.
Also, the NASA Office of Inspector General and the GAO has each issued an audit report that
discusses ISS propulsion capability and contingency planning.

IG-99-009, “Space Station Contingency Planning for International Partners,” March 9,
1999. The report states that NASA had not developed an integrated and comprehensive plan
to address risks to the assembly of the ISS caused by the possible delay or default by
international partners. The report also states that it would cost about $90 million to modify all
four Space Shuttle Orbiters to support ISS reboost missions if there were temporary shortfalls
in Progress vehicles. Without the modification, the reboost capability would be useful only
through flight 12A when the weight of the ISS would become too heavy. See
www.hq.nasa.gov/office/oig/hq/issueaudits.html for a copy of the report.

GAO-01-576R, "International Space Station Propulsion Module Procurement
Process,” April 26, 2001. The report states that the original 1984 U.S. design for a space
station included a propulsion module. In 1993, Russia joined the newly created ISS Program
and agreed to provide the propulsion capability. Because of concerns about Russian delays,
NASA later initiated a U.S.-funded propulsion module effort in December 1998. NASA did
not consider a competitive procurement for the Propulsion Module. Instead, the Agency
modified the existing ISS contract with Boeing. GAO concluded that the modification of
Boeing's contract was appropriate because the changes clause of the contract allowed NASA
to modify the contract provided the change was within the scope of the contract. Additionally,
the report states that NASA reasonably concluded that the Propulsion Module was within the
scope of Boeing's contract.

                                               18
                                                                                  Appendix A

GAO/NSIAD-99-175, "Space Station: Russian Commitment and Cost Control
Problems,” August 17, 1999. The report states that the United States was capable of
providing permanent reboost to the ISS. The estimated cost would be $730 million, with the
Propulsion Module being the most expensive item. The report also states that NASA did not
develop cost estimates. NASA initially relied on a contractor quote to estimate the cost but
subsequently refined its requirement for a Propulsion Module, resulting in a much higher cost
estimate. The report notes that NASA had raised questions about Russia's ability to support
the ISS during and after assembly. NASA prepared a contingency plan in case the Service
Module experienced further delays and the Russians do not provide Progress vehicles for
reboosting the ISS.




                                              19
        Appendix B. Chronology of Events for the Propulsion Module


       Date                                              Event

Summer 1998    NASA undertakes initial efforts in the ISS Contingency Plan to provide for a U.S.
               capability to mitigate the impact of further Russian delays caused by the uncertain fiscal
               situation of the Russian government.

8/28/98        At NASA’s request, Boeing submits a technical proposal (which does not include
               a cost estimate) to build two Propulsion Modules.

10/6/98        Boeing submits an updated proposal to build one Propulsion Module for $331 million.

10/14/98       ISS Program Office selects a Project Manager at Marshall Space Flight Center.

11/20/98       Russia launches the Functional Energy Block (FGB) as the first element
               of the ISS.

12/23/98       Johnson Procurement Office issues a Long-Lead Hardware and System Definition
               Change Request to the Boeing Contract. The rough cost of this change is $9.1 million.

1/29/99        NASA begins a review of Propulsion Module requirements. The Technical
               Coordination Meeting includes the ISS Program Office, Propulsion Module
              Project Office, and Boeing.

2/17/99        Associate Administrator for Space Flight orally approves funding of $479 million for the
               Propulsion Module Project through preliminary design review.

3/99           Project Office develops a parametric cost estimate of $343 million for the United States
               Propulsion Module (USPM).

3/99-4/99      Project Office conducts a systems requirements review (SRR) for the Propulsion
               Module element of the USPM.

5/99           Project Office develops a parametric cost estimate of $362 million for the USPM.

6/99           Space Shuttle Program Office conducts an SRR for the Obiter Propellant Transfer
               System (OPTS).




                                              20
                                                                                    Appendix B


   Date                                           Event

10/18/99   ISS Program Operating Plan includes $479 million for a Propulsion Module.

11/5/99    Associate Administrator for Space Flight issues a Project formulation letter.

12/9/99    Propulsion Module (USPM) fails its preliminary design review.

3/20/00    ISS Program Office transfers the Design, Development, Test and Evaluation
           (Schedule II of ISS Prime Contract) to the Project Office. Also, the ISS
           Program Office issues a contract modification to establish Schedule II.

4/24/00    Budget Review Teams from the Project Office and the Johnson ISS Program
           Office perform a review of Boeing’s cost growth of $479 million to $744 million
           for the USPM.

5/9/00     Project Office begins the delta preliminary design review for the Propulsion
           Module element of the USPM.

5/22/00    ISS Program Manager cancels the OPTS because of cost and weight growth
           and safety concerns.

5/30/00    Project Office initiates a review of alternatives (called "trade studies") for the
           Propulsion Module.

6/15/00    Project Office issues a request for information worldwide for an opportunity to
           build a Propulsion Module for the ISS.

7/7/00     Alternative Propulsion Module Assessment Team briefs its results and
           recommendations to the ISS Program Office.

7/14/00    Project Office asks Boeing to reassess and recommend solutions for identified
           risks.

7/25/00    Service Module (“Zvezda”) successfully docks with the ISS.

7/27/00    Contracting Officer at Marshall issues a redirection of effort letter to Boeing that
           all design, development, test and evaluation effort, exclusive of long-lead
           procurement activities, contract closeout, and settlement activities are not
           authorized after July 31, 2000.



                                           21
Appendix B




   Date                                           Event

7/31/00      NASA directs Boeing to stop work on the USPM.

8/4/00       Space Shuttle Program Office issues “lessons learned” report on OPTS.

8/8/00       Progress vehicle successfully refuels Service Module for the first time.

9/00         Project Office develops a parametric cost estimate of $675 million for the
             USPS.

9/7/00       ISS Program Office briefs its options assessment to the Office of Space Flight.

9/27/00      NASA selects the Node X design for the USPS.

10/9/00      Project Office issues to Boeing a request for a not-to-exceed proposal with a
             limited statement of work.

10/31/00     Boeing submits a proposal for the limited statement of work.

10/31/00     ISS Program Manager decides to store the Interim Control Module because of
             decreased risk of loss of Russian propulsion capability.

11/18/00     Progress vehicle delivers supplies and spare parts to ISS.

1/10/01      Project Office issues a request for proposal to Boeing, based on Boeing’s
             decision to make Node 4 and buy the Propulsion Module for the USPS.
             Boeing's proposal is due on April 30, 2001.

2/10/01      Orbiter Atlantis delivers U.S. Laboratory (“Destiny”) to the ISS. Destiny will
             serve as the center for U.S. scientific experiments and will assume command and
             control of the ISS from the Russians.

2/28/01      A blueprint of the President's Budget for fiscal year 2002 indicates that funding
             will be redirected from high-risk elements like the Propulsion Module to help
             offset ISS cost growth.

3/2/01       ISS Program Manager cancels the USPS because of budget concerns.




                                           22
        Appendix C. Analysis of Alternatives for the Propulsion Module

NASA performed an analysis of alternatives for the USPS before selecting that design.
However, NASA did not evaluate alternatives for its selection of the USPM because it viewed
the concept of using existing Space Shuttle hardware and unused reserve fuel from Orbiters as
the best solution.

Guidance on Alternative Evaluations

NPG 7120.5A, "NASA Program and Project Management Processes and Requirements,"
April 3, 1998, requires that systems analysis be accomplished by performing trade studies (a
review of alternatives) among candidate project concepts that consider affordability, technology,
content, risk, and potential acquisition strategies.

OMB Circular No. A-109, "Major System Acquisitions," April 5, 1976, was designed to
assure the effectiveness and efficiency of acquiring major systems. The Circular requires
Federal agencies to place emphasis on the initial activities of the system acquisition process to
allow competitive exploration of alternative system design concepts in response to mission
needs. One objective of the Circular is that each agency should depend on, whenever
economically beneficial, competition between similar or different system design concepts
throughout the entire acquisition process.

USPM Concept and Selection

Boeing presented the USPM concept to NASA in March 1997, stating that the USPM could
make use of existing hardware and technology and off-the-shelf engines and be refueled using
excess fuel carried by the Orbiters. The design concept was based on the premise that it was a
cost-effective solution for the Propulsion Module with proven components and operations.
Boeing identified existing Space Shuttle hardware, such as certified components available at the
White Sands Test Facility, that was a Space Shuttle test article. Also, Boeing planned to use
existing logistics spares and off-the-shelf engines. Another concept was that the Orbiter carries
extra fuel on each flight for contingency purposes and could transfer the extra fuel during each
mission to the ISS. Boeing's package also indicated that an Orbiter could return the Propulsion
Module if it needed repair or maintenance. In response to Boeing's presentation package, in
February 1999, the Associate Administrator for Space Flight authorized the Director, Johnson
Space Center, to proceed with the formulation and limited implementation of the USPM.34

USPM Alternatives

Since 1996, the Agency considered various other alternatives for propulsion capabilities but
usually in the form of a presentation by a contractor and usually without a documented analysis
or decision. The only documented analysis was the Mission Integration Office's May 1999
comparison between the Functional Energy Block-2 (FGB-2) and the USPM. The alternatives


34
     The Associate Administrator for Space Flight documented the direction in a November 1999 memorandum.
                                                      23
Appendix C

may not have provided a long-term propulsion capability (see Finding A). Some alternatives
that contractors briefed to NASA officials included the following:

        FGB-2. Russia built the FGB-2 as a backup to the FGB that was delivered in
        November 1998 as the first element of the ISS.35 Both vehicles are self-sufficient orbital
        transfer vehicles that contain propulsion; guidance, navigation, and control;
        communications; electrical power; thermal control systems; and stowage capacity.
        NASA performed an assessment of modifying the FGB-2 and using it instead of a
        U.S.-built Propulsion Module. NASA also evaluated options to add an Orbiter-
        refueling capability. In May 1999, the Mission Integration Office provided the
        assessment and estimated the FGB-2 could be ready to launch in about 12 to
        18 months. The USPM was selected over the FGB-2 because the latter design
        required full Russian participation and did not remove the ISS from critical long-term
        dependency on Russia. In summer 2000, Boeing purchased the FGB-2 to serve as a
        commercial space station in partnership with Khrunichev.

        Space Shuttle Options for Service Module Delay. A NASA team performed a
        study to determine a way to utilize the Orbiter to provide Service Module functions for
        up to 1 year. The Agency included the results in a Special Team Report dated
        September 13, 1996. The report recommended that NASA seek alternative sources.

USPS Selection and Alternative Evaluations

After the cancellation of the USPM, NASA performed extensive alternative evaluations before
selecting the USPS. The objective of the Alternative Propulsion Module Assessment Team
(APMAT) was to assess the Propulsion Module design concepts and the potential capability to
meet the ISS Program's requirements. The APMAT evaluated five options for a new
propulsion system using weighted assessments of 33 criteria within 3 categories. The categories
were programmatic; design, development, test, and evaluation; and integration. The team
provided its results to the ISS Program Office in July 2000.

Based on the results, the ISS Program Office tasked Boeing to perform an additional detailed
integration assessment on the two top-rated options. Boeing established an Integration
Evaluation Team for the assessment with close coordination from the ISS Program Office,
Johnson Space Center Directorates, and the Propulsion Module Project Office.




35
  Although Russia built the FGB, the United States funded it through the ISS prime contract. Boeing
subcontracted the work to the Russian firm Khrunichev.
                                                    24
                                                                                                 Appendix C

The integration assessment evaluated integration risks and uncertainties behind the APMAT
recommendation. After the assessment results, the Project Office reassessed the options using
the APMAT criteria and evaluation methodology. The five evaluated options were the following
monopropellant concepts:

         Node X Option. NASA selected this option and later renamed it the USPS. The
         design concept uses the Node 4 installed on the forward end of the ISS. Node 4
         would include a radial (side) port to install the Propulsion Module and an Orbiter
         docking port.

         Z-1 Truss Option. The Propulsion Module would have attached to a platform
         mounted behind the Z-1 segment of the ISS.36 This option was APMAT's top-rated
         choice. However, after the detailed integration assessment performed by the Integrated
         Evaluation Team and reassessment based on the APMAT criteria and evaluation
         method, NASA chose the Node X option.

         Split Element Option. This option was similar to the Node X option in that both
         options contained two elements, one of which was the same Propulsion Module.
         However, the split element option did not use the Node 4 but instead required the
         construction of a separate element with a tunnel for access to and from the ISS. Also,
         using this option, the module would have been docked with a forward docking port.

         Modified Baseline Option 2. This option included the Propulsion Module from the
         USPM but excluded the OPTS. The baseline option would have been modified to use
         monopropellant and have one set of fuel tanks. The OPTS was a bi-propellant system.

         Modified Baseline Option 2A. This option is the same as the Modified Baseline
         Option 2 except that it has a removable modular unit and an additional set of permanent
         tanks.




36
  The Z-1 Truss is an early exterior framework that allows first U.S. solar arrays to be temporarily installed
on U.S. Node 1 ("Unity") for early power.




                                                       25
                Appendix D. Criteria for Project Management
                       and Sole-Source Procurement

OMB Circular A-109, "Major System Acquisitions," April 5, 1976, sets forth policies that
apply to the acquisition of major systems by an agency of the Federal Government. The
Circular applies to management of the acquisition of major systems including engineering,
development, and testing and evaluation to achieve program objectives. The Circular directs
agencies to determine mission needs through an analysis of mission requirements and a
comparison of alternative system design concepts. Additionally, each agency should depend
on, whenever economically beneficial, competition between similar or differing system design
concepts throughout the entire acquisition process.

NPG 7120.5A, "NASA Program and Project Management Processes and
Requirements," April 3, 1998, requires a documented project plan that includes a
comprehensive definition of the project concept and agreements, approaches, and plans for
meeting the technical, budget, schedule, risk management, commercialization, acquisition, and
related project requirements and performance objectives. All NASA projects shall implement
the formulation process to provide assurance that the project is ready to proceed into
implementation. Project implementation initiates the approved project requirements and plans.
The requirements and plans include risk management. Risk management begins with an initial
risk identification and development of a risk management plan and continues throughout the
project. Risk management planning shall be developed and included in the project plan.
Project implementation shall be executed in accordance with the controlling documents
developed during the formulation and approval subprocesses.

FAR 6.303, “Justification,” requires a contracting officer to provide written justification for
the award and certification of a sole-source contract and to secure approval for it before (1)
commencing negotiations for a sole-source contract, (2) commencing negotiations for a contract
resulting from an unsolicited proposal, or (3) awarding any other contract without providing for
full and open competition. FAR 6.303-2 sets forth the content that each justification must
include:

        •   A document that identifies the agency and contracting activity and identifies itself as
            a “Justification for other than full and open competition.”

        •   Nature and description of the action being approved.

        •   Description of the services or supplies.

        •   An identification of the statutory authority permitting other than full and open
            competition.

        •   A demonstration that the proposed contractor’s unique qualifications or the nature
            of the acquisition requires the authorization.


                                                26
                                                                                       Appendix D


        •   A description of efforts made to ensure that offers are solicited from potential
            sources as is practicable.

        •   A determination that the anticipated cost to the Government will be fair and
            reasonable.

        •   A description of the market research and result or a statement of the reason such
            research was not conducted.

        •   Any other facts supporting the use of other than full and open competition.

        •   A list of sources that expressed an interest in the acquisition.

        •   A statement of the actions the agency may take to overcome barriers to
            competition.

        •   Contracting officer certification that the justification is accurate and complete.

FAR 7.105, "Contents of Written Acquisition Plans," requires the acquisition plan to
identify those milestones at which decisions should be made. The plan shall address all the
technical, business management, and other significant considerations that will control the
acquisition. Included in the plan will be a summarization of the technical and contractual history
of the acquisition, feasible acquisition alternatives, impact of prior acquisitions on those
alternatives, and any related in-house effort. The plan will discuss technical, cost, and schedule
risks and describe the efforts planned or under way to reduce risk and the consequences of
failure to achieve goals. If concurrency of development and production is planned, the plan will
discuss its effects on cost and schedule risks.




                                                 27
Appendix E. Management's Response




               28
     Appendix E




29
                  Appendix E




See Appendix F,
OIG Comment 1




                               30
     Appendix E




                  See Appendix F,
                  OIG Comment 2




31
                  Appendix E




See Appendix F,
OIG Comment 3




See Appendix F,
OIG Comment 4




                               32
     Appendix E




33
                  Appendix E




See Appendix F,
OIG Comment 5




                               34
         Appendix F. OIG Comments on Management's Response

The Johnson Space Center (Johnson) provided the following comments in its response to our
draft report. Our responses to the comments are also presented.

Management Comments. Johnson stated that the projected costs were increasing but had
not doubled as stated in the report. Johnson indicated that the original budget was $542 million
and at the time of suspension of the project, the estimated acquisition costs were from $700 to
$740 million.

1. OIG Comments. Our report states (in Finding A) that the acquisition costs more than
doubled in relation to the contractor's proposed estimate, not in relation to the budget. Boeing
proposed $331 million in October 1998. In April 2000, Boeing increased its estimate to $744
million. The report also states that the increase was affected by changes in requirements and
schedule delays.

Management Comments. Johnson stated that the report provided alternatives that are neither
cost-effective nor credible. Also, NASA is not free to purchase Progress vehicles as stated
because of the Iran Nonproliferation Act of 2000. The only exception to the Act is for crew
safety.

2. OIG Comments. Our intent is to show some possible alternatives to the Propulsion
Module. Because we realize that some alternatives may not be as cost-effective as others, we
attempted to outline the pros and cons of each one without endorsing any of them. For
example, the report states that the Interim Control Module could be a short-term solution for a
delay or shortage of Progress vehicles. Additionally, we reported that the ISS Program
Manager stated that the FGB-2 would not be a good deal for NASA. We also agree that the
Iran Nonproliferation Act restricts NASA's purchase of Progress vehicles. However, there is
an exception to the Act that allows NASA to make payments for the maintenance of the
Service Module, which would otherwise be prohibited.37 Therefore, a NASA purchase of
Progress vehicles is possible.

Management Comments. Johnson disagreed that alternatives were not considered and that
an adequate acquisition strategy was not developed on the USPM.


3. OIG Comments. Our report acknowledges that NASA considered alternatives for the
USPM. Specifically, we state in Appendix C that the Agency considered various alternatives
for propulsion capabilities. However, consideration of the alternatives was usually limited to
concept briefings by contractors without formal comparison to other


37
  The Act defines maintenance as "activities, which cannot be performed by NASA, and which must be
performed in order for the Service Module to provide orbital maintenance functions, which cannot be
performed by an alternative means at time of payment."
                                                    35
Appendix F


alternatives and without a record of an Agency decision on the concepts. In contrast, for the
USPS, NASA performed thorough comparative analyses of alternatives and made a selection
based on the analyses.

We agree that NASA had an acquisition strategy but maintain that the strategy for the USPM
did not comply with the Federal Acquisition Regulation (FAR) regarding justification for a
noncompetitive procurement (see Finding C). However, our report acknowledges that NASA
showed better planning for the USPS through its planned review of Boeing's make-or-buy plan
for adequacy and approval prior to contract award. Also, the Project Office planned to
determine the acceptability of Boeing's selection of subcontractors and the process for key
subsystems.

Management Comments. Johnson responded that there is no process that guarantees that all
project objectives will be met. Deferring the preliminary design review for the USPM until all
system requirements review issues were eliminated would have caused schedule delays and cost
growth. Additionally, management placed all open requirement issues under formal
configuration control. Requirement issues were under sufficient control, and project personnel
could respond to any impacts.

4. OIG Comments. We maintain that existing processes and controls were not effectively
used on the USPM. Requirement issues were not resolved, and firm requirements were not in
place prior to the preliminary design review. We also maintain that these factors contributed to
the design review failing, the schedule eroding, and the cost increasing. This conclusion is
consistent with those of NASA's independent assessment team.

Management Comments. Johnson stated that it did not need to justify the sole-source
procurement of the Propulsion Module because propulsion capability was within the general
scope of the ISS Contract. The Propulsion Module was properly added to the existing contract
through the change order process, which does not require compliance with FAR Part 6 and 7.
Also, the Propulsion Module should not be considered a "cardinal change" in context of the ISS
prime contract. Additionally, FAR Part 1807 was not applicable for the same reasons.
Because the Propulsion Module was within the general scope of the ISS Contract, the
Propulsion Module was properly procured through modification to the ISS contract and was
exempt from new procurement regulations. A recent GAO report supports this position (GAO-
01-576R, see Prior Audit Coverage in Appendix A of this report). Further, a complete
discussion between cardinal and ordinal changes would show that the Propulsion Module was
within the scope of the contract.

5. OIG Comments. We maintain that the procurement was not within the general scope of
the contract. The Propulsion Module was not included in the ISS contract or as hardware for
the U.S. on-orbit segment. The ISS prime contract calls for the design, development,
manufacture, integration, test, verification, and delivery of the U.S. on-orbit segment of the ISS.
Additionally, the prime contractor is responsible for managing, integrating, and coordinating the
                                                36
                                                                                         Appendix F

design and development of all hardware as well as ensuring total ISS system performance. We
agree that the prime contractor's responsibility to integrate and coordinate the design and
development of the Propulsion Module was within the scope of the ISS contract. However, we
maintain that the actual development and manufacture of the hardware was outside the scope.

As our report states, the contract did not assign Boeing the responsibility to build every
component of the ISS, and the contract did not specifically address the Propulsion Module.
The ISS contract, as consolidated in 1993, did not assign Boeing the responsibility to design
and build parts of the ISS that were specifically tasked to Russia. Additionally, there are parts
of the ISS U.S. on-orbit segment that NASA did not specifically contract with Boeing.

NASA's statement that a complete discussion on cardinal and ordinal changes would clearly
show that the Project was within the scope of the ISS Contract is not supported. Johnson's
response acknowledges that a cardinal change would constitute a new procurement. As a new
procurement, FAR Part 6 and Part 7 as well as NASA FAR Supplement Part 1807 would be
applicable. As discussed in the report, a cardinal change constitutes a change that is of such
material alteration to the contractual understanding that the new work is considered outside the
scope of the contract and should be treated as a new procurement. Even though we have
provided justification to support our conclusion that the Propulsion Module Project should be
considered outside the scope of the contract and is, therefore, a new procurement, we can also
support the conclusion that even if the Propulsion Module was considered within the contract
scope, the procurement would still be a cardinal change, and the Agency would need to follow
the FAR for new procurements. NASA's actions in the treatment of the Propulsion Module
Project support the consideration that the change be considered a material alteration and,
therefore, a cardinal change. Based on NASA's definition of a project38 and the fact that
NASA implemented the Propulsion Module as a project, NASA is supporting our position that
the Propulsion Module change is indeed a material change to the original scope of work as
contemplated when the ISS contract was negotiated.

As NASA indicates, GAO's recent report on the procurement process for the Propulsion
Module supports the Agency's position that the Propulsion Module was within the scope of the
contract. Although we disagree with that position, our report does not conclude that a sole-
source procurement was inappropriate, but merely that NASA did not adequately document its
reasons for that method of contracting, even though justification for sole-source procurements is
required by the FAR.

As our report acknowledges, NASA has the authority to justify the noncompetitive selection of
Boeing. Additionally, based on the Associate Administrator for Space Flight's explanation and
NASA's response to our draft report, we believe that the Agency can sufficiently justify the
sole-source selection. However, the justification needs to be


38
  NASA Policy Directive 7120.4B, "Program and Project Management," December 1999, defines a project as
a significant activity within a program.
                                                  37
Appendix F


documented in the manner prescribed by the FAR. Therefore, we maintain that the Propulsion
Module procurement should have complied with the FAR requirements for new work and not
just for an ordinary change order.




                                            38
                         Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Acting Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space




                                               39
Appendix G


Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             40
               NASA Assistant Inspector General for Auditing
                              Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Acquisition of the Space Station Propulsion Module

Report Number:                                   Report Date:

           Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                                    l         e      Disagre
                                                Agree                                   e

1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                           Media
       NASA Employee                                 Public Interest
       Private Citizen                               Other:
       Government:               Federal:               State:         Local:


May we contact you about your comments?

Yes: ______                                        No: ______
Name: _______________________

Telephone:_________________________


Thank you for your cooperation in completing this survey.




                                              42
Major Contributors to the Report

Dennis E. Coldren, Program Director, Space Flight Audits

Jimmie J. Griggs, Auditor-in-Charge

Barbara A. Moody, Auditor

Nancy C. Cipolla, Report Process Manager

June C. Glisan, Program Assistant
